No. _______________

In the Supreme Court of the United States
________________________

DUANE SHORT,
Petitioner,
v.
STATE OF OHIO,
Respondent.
________________________

On Petition for Writ of Certiorari
To the Supreme Court of Ohio
______________________________________________________________________________
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
______________________________________________________________________________

Case No. 2020-1476

State of Ohio

ENTRY

v.
Duane Allen Short

Upon consideration of the jurisdictional memoranda filed in this case, the court
declines to accept jurisdiction of the appeal pursuant to S.Ct.Prac.R. 7.08(B)(4).
(Montgomery County Court of Appeals; No. 28696)

Maureen O'Connor
Chief Justice

The Official Case Announcement can be found at http://www.supremecourt.ohio.gov/ROD/docs/

Appendix A

A-1

[Cite as State v. Short, 2020-Ohio-5034.]

IN THE COURT OF APPEALS OF OHIO
SECOND APPELLATE DISTRICT
MONTGOMERY COUNTY
STATE OF OHIO
Plaintiff-Appellee
v.
DUANE ALLEN SHORT
Defendant-Appellant

:
:
:
:
:
:
:
:
:
:

Appellate Case No. 28696
Trial Court Case No. 2004-CR-2635
(Criminal Appeal from
Common Pleas Court)

...........
OPINION
Rendered on the 23rd day of October, 2020.
...........
MATHIAS H. HECK, JR., by ANDREW T. FRENCH, Atty. Reg. No. 0069384, Assistant
Prosecuting Attorney, Montgomery County Prosecutor’s Office, Appellate Division,
Montgomery County Courts Building, 301 West Third Street, Dayton, Ohio 45422
Attorney for Plaintiff-Appellee
KIMBERLY S. RIGBY, Atty. Reg. No. 0078245 and ERIKA M. LAHOTE, Atty. Reg. No.
0092256, Office of the Ohio Public Defender, 250 East Broad Street, Suite 1400,
Columbus, Ohio 43215
Attorneys for Defendant-Appellant
.............

TUCKER, P.J.

Appendix B

A-2

-2-

{¶ 1} Appellant Duane Allen Short appeals from a judgment of the Montgomery
County Court of Common Pleas, which found that it was without jurisdiction to consider
Short’s motion for a new mitigation trial. The trial court incorrectly concluded that it
lacked jurisdiction. However, Short is not entitled to a new mitigation trial under the
authority of Hurst v. Florida, 577 U.S. 92 136 S.Ct. 616, 193 L.Ed.2d 504 (2016). Thus,
the trial court’s judgment will be affirmed.
Facts and Procedural History
{¶ 2} In 2004, Short was indicted for the aggravated murders of Rhonda Short, his
estranged wife, and Donnie Sweeney. The murder indictments included aggravating
circumstance specifications. The jury found Short guilty of the aggravated murders and
the aggravating circumstance specifications. Further, following deliberations regarding
the specifications, the jury unanimously found that the aggravating circumstances
outweighed the mitigating factors, and therefore the jury recommended a death sentence.
The trial court adopted the jury’s recommendation and sentenced Short to death. Short’s
conviction and sentence were affirmed on direct appeal. State v. Short, 129 Ohio St.3d
360, 2011-Ohio-3641, 952 N.E.2d 1121.1
{¶ 3} In January 2017, Short filed a motion styled as a “* * * Motion For Leave To
File A Motion For A New Mitigation Trial Pursuant To Criminal Rule 33 And Hurst v.
Florida, And To Deem The Attached Motion Filed Instanter[.]” Attached to the motion
was a copy of the proposed motion seeking a new mitigation trial. In July 2017, the trial
court sustained Short’s motion for leave to file a motion for a new mitigation trial. The

In 2014, Short filed a petition seeking post-conviction relief, which was denied by the trial
court. This court affirmed the trial court’s decision. State v. Short, 2d Dist. Montgomery
No. 27399, 2018-Ohio-2429.
1

Appendix B

A-3

-3-

trial court’s order stated that “[Short] must file his motion for New Trial in a timely manner
as provided by law.”
{¶ 4} Thereafter, Short did not file a motion for a new trial with the Montgomery
County Clerk of Courts. The parties, in December 2019, filed a motion styled as a “Joint
Motion for Ruling on Motion for New Mitigation Trial[.]” The joint motion noted the trial
court had conducted a telephone status conference with counsel during which Short’s
attorneys informed the trial court that they “had assumed that attaching the Motion for
New Trial to the Motion for Leave was sufficient for filing purposes.” On December 30,
2019, the trial court filed a decision and order concluding that “Crim.R. 33(B) * * * requires
that any motion for new trial be filed within seven days after a defendant is granted leave
to file said motion. Short failed to file any motion for a new trial after the court granted
him leave, and, as such, there is no timely motion for a new mitigation trial before this
court, and the court lacks jurisdiction to consider an untimely motion for a new mitigation
trial.” (Emphasis sic.) Based upon this jurisdictional conclusion, the trial court overruled
Short's motion seeking a new mitigation trial. The trial court also noted that if the motion
had been timely filed, it would have been overruled under the authority of State v. Mason,
153 Ohio St.3d 476, 2018-Ohio-1462, 108 N.E.3d 56.
{¶ 5} Short appeals.
Trial Court’s Jurisdiction to Decide Motion for New Mitigation Trial
{¶ 6} As noted, the trial court concluded it was without jurisdiction to decide Short’s

Appendix B

A-4

-4-

motion seeking a new mitigation trial because, in contravention of Crim.R. 33(B),2 Short
did not file a motion for a new mitigation trial within seven days of the trial court’s decision
and order granting leave to file the motion.
{¶ 7} Crim.R. 45(B) states in relevant part that a “court may not extend the time for
taking any action under Rule 23, Rule 29, Rule 33, and Rule 34 except to the extent and
under the conditions stated in them.” It seems that this language supports the trial
court’s jurisdictional conclusion. But the Ohio Supreme Court’s decision in State v. Ross,
128 Ohio St.3d 283, 2010-Ohio-6282, 943 N.E.2d 992 suggests otherwise.
{¶ 8} In Ross, the Ohio Supreme Court considered whether a trial court is without
jurisdiction to “reconsider a timely made, but previously denied, motion for acquittal
pursuant to Crim.R. 29(C), if the defendant after the 14 day deadline in that rule, renews
the motion.” Id. at ¶ 12. Ross concluded that the Crim.R. 29(C)3 time limitations are
appropriately characterized as “a rigid claim-processing rule” as opposed to a
jurisdictional bar. Id. at ¶ 30.4

Crim.R. 33(B) states in pertinent part: “Application for a new trial shall be made by
motion which, except for the cause of newly discovered evidence, shall be filed within
fourteen days after the verdict was rendered, or the decision of the court where a trial by
jury has been waived, unless it is made to appear by clear and convincing proof that the
defendant was unavoidably prevented from filing his motion for a new trial, in which case
the motion shall be filed within seven days from the order of the court finding that the
defendant was unavoidably prevented from filing such motion within the time provided
herein.”
2

Crim.R. 29(C) states in pertinent part: “If a jury returns a verdict of guilty or is discharged
without having returned a verdict, a motion for judgment of acquittal may be made or
renewed within fourteen days after the jury is discharged or within such further time as
the court may fix during the fourteen day period. * * *
3

Ross ultimately concluded that, although not a jurisdictional bar, “the strict time
limitations in Crim.R. 29 and 45(B) * * * do not permit a defendant to renew, outside
Crim.R.29(C)’s limited time frame, [a motion] for acquittal when the motion has been

4

Appendix B

A-5

-5-

{¶ 9} In reaching this conclusion, the supreme court discussed and relied upon
Eberhart v. United States, 546 U.S. 12, 126 S.Ct. 403, 163 L.Ed.2d 14 (2005). In that
case, Eberhart filed a supplemental memorandum in support of a pending motion for a
new trial under Fed.R.Crim.P. 33. The supplemental memorandum raised new grounds
for the relief sought; thus, the supplemental memorandum constituted a new but untimely
motion as to the newly raised grounds. The government did not object to the newly
asserted grounds for a new trial as being untimely, but, instead, contested these grounds
on the merits. The district court granted a new trial in part upon the basis of the untimely
asserted grounds for relief. The Seventh Circuit reversed, concluding that the district
court was without jurisdiction to consider the untimely asserted grounds for a new trial.
The Supreme Court then reversed the Seventh Circuit’s judgment, stating:
Rule 33, like Rule 29 * * *, is a claim-processing rule -- one that is admittedly
inflexible because of [Fed.R.Crim.P.] 45(b)’s insistent demand for a definite
end to proceedings. These claim-processing rules thus assure relief to a
party properly raising them, but do not compel the same result if the party
forfeits them. Here, where the Government failed to raise a defense of
untimeliness until after the District Court had reached the merits, it forfeited
the defense.
Eberhart at ¶ 19.
{¶ 10} Consistent with State v. Ross, we conclude that Crim.R. 33(B) and Crim.R.
45(B) do not impose a jurisdictional bar that absolutely prevents a court from considering
an untimely motion for a new trial. Instead, Crim.R. 33(B) and Crim.R. 45(B) create a

previously denied.” Id. at ¶ 40.

Appendix B

A-6

-6-

“rigid claim-processing rule” that must be enforced if properly raised. Ross, 128 Ohio
St.3d 283, 2010-Ohio-6282, 943 N.E.2d 992, at ¶ 30.
{¶ 11} Given this conclusion, the trial court had jurisdiction to consider Short’s
motion for a new mitigation trial. The issue, then, is whether the State properly raised
the defense that Short’s motion was not timely filed. We conclude, under the unique
circumstances of this case, that the defense was not raised and, as such, was waived.
{¶ 12} We reach this conclusion based upon the following language from the Joint
Motion requesting the trial court to rule on Short’s motion:
Without waiving any defenses on behalf of either party as to the
timeliness of the filing of Short’s Motion for New Mitigation Trial or to the
merits of the Motion for New Mitigation Trial or otherwise, the undersigned
Assistant State Public Defenders, Kim Rigby and Erika LaHote, along with
the undersigned Assistant Prosecuting Attorneys, Leon J. Daidone and
Andrew T. French, jointly request that this Court rule on the Motion for New
Mitigation Trial. The parties request that this Court rule on the Motion for
New Mitigation Trial without affording further briefing to either party. All
counsel also stipulates that the Ohio Supreme Court’s decision in State v.
Mason, 153 Ohio St.3d 476, 2018-Ohio-1462 controls this case.
This language requests a ruling on the merits, recognizing, however, that the trial court
had to overrule the motion based upon Ohio Supreme Court case law. We recognize
that the joint motion includes the statement that timeliness defenses were not being
waived. But the State did not assert a timeliness objection, and this, in conjunction with
the joint request for a ruling on the merits, leads to our waiver conclusion. Thus, the trial

Appendix B

A-7

-7-

court was not precluded by the rigid claims-processing rule from addressing the merits of
Short’s new trial motion.
Merits Discussion
{¶ 13} Although the trial court concluded that it was without jurisdiction to consider
Short’s motion, it noted that the motion was substantively without merit based upon State
v. Mason, 153 Ohio St.3d 476, 2018-Ohio-1462, 108 N.E.3d 56.

The trial court’s

assessment was correct.
{¶ 14} Short claims a right to a new mitigation trial under the authority of Hurst v.
Florida, 577 U.S. 92 136 S.Ct. 616, 193 L.Ed.2d 504, which found that Florida’s capital
sentencing structure violated the Sixth Amendment. The United States Supreme Court
“determined that Florida’s death penalty scheme violated the Sixth Amendment [right to
a jury] because it required the trial judge, not the jury, to find an aggravating circumstance
that made [the] defendant death penalty eligible; thus, the jury was removed from the
critical finding necessary for imposition of the death penalty.” State v. Chinn, 2d Dist.
Montgomery No. 28345, 2020-Ohio-43, ¶ 14, citing Hurst at 622.
{¶ 15} In Mason, the Ohio Supreme Court concluded that Ohio’s death penalty
scheme does not suffer from the problem present in Hurst because, in Ohio, the jury is
required to find the defendant guilty of the aggravating circumstance specification
necessary for death penalty eligibility. Mason at ¶ 20. Given this, Short was not entitled
to a new mitigation trial under the authority of Hurst. The trial court’s result was correct,
albeit for a different reason.
Conclusion
{¶ 16} For the discussed reasons, the trial court’s judgment is affirmed.

Appendix B

A-8

-8-

.............

FROELICH, J. and HALL, J., concur.

Copies sent to:
Mathias H. Heck, Jr.
Andrew T. French
Kimberly S. Rigby
Erika M. LaHote
Hon. Mary Katherine Huffman

Appendix B

A-9

ELECTRONICALLY FILED
COURT OF COMMON PLEAS
Monday, December 30, 2019 1:55:28 PM
CASE NUMBER: 2004 CR 02635 Docket ID: 34161447
MIKE FOLEY
CLERK OF COURTS MONTGOMERY COUNTY OHIO

2004 CR 026 35
CR
YES
YES

IN THE COMMON PLEAS COURT OF MONTGOMERY COUNTY, OHIO
CRIMINAL DIVISION
STATE OF OHIO,

CASE NO. 2004 CR 02635

Plaintiff,

JUDGE MARY KATHERINE HUFFMAN

-vs-

General Division

Montgomery County Common Pleas Court

CASE_D SCR
CASE_ TYPE
DOCKET_ CODE
FORMSGEN
WORDDOC

DECISION, ORDER AND ENTRY
FINDING THE COURT LACKS
JURISDICTION TO CONSIDER
DEFENDANT’S UNTIMELY MOTION
FOR NEW MITIGATION TRIAL AND,
IN THE ALTERNATIVE, OVERRULING
DEFENDANT’S MOTION FOR NEW
MITIGATION TRIAL

DUANE ALLEN SHORT,
Defendant

This matter is before the court on the Joint Motion for Ruling on Motion for New Mitigation
Trial filed herein on December 20, 2019. In that Joint Motion, Defendant, Duane Short, through
counsel, and the State of Ohio submitted for determination, without further briefing, whether
Defendant had timely filed a Motion for New Mitigation Trial following this court’s decision on
January 10, 2017, granting him leave to file said Motion, and on the substance of the Motion for
New Mitigation Trial.
The procedural and substantive history of this case is detailed in prior decisions of this court
and will not be repeated herein.
Pursuant to Crim. R. 33(B), a motion for new trial must be filed within seven days after a
defendant is granted leave to file said motion. Still further, Crim. R. 45 provides “[t]he court may
not extend the time for taking any action under Rule 23, Rule 29, Rule 33, and Rule 34, except to

Appendix C

A - 10

2

the extent and under the conditions stated in them.” “Once a motion for leave has been granted, the
trial court has not discretion to change the time in which the motion for new trial must be filed.”
State v. McConnell, 2011-Ohio-5555. This court granted Short leave to file his Motion for New
Mitigation trial on January 10, 2017. At no time thereafter did Short file said Motion. While
counsel argues that Short filed a copy of a proposed Motion for New Mitigation Trial with his
Motion for Leave filed on January 10, 2017, Crim. R. 33(B) specifically requires that any motion
for new trial be filed within seven days after a defendant is granted leave to file said motion. The
court finds that Short failed to file any motion for new trial after the court granted him leave, and as
such, there is no timely motion for a new mitigation trial before this court, and the court lacks
jurisdiction to consider an untimely motion for a new mitigation trial.
Even if the court were to assume that Short timely filed his Motion for New Mitigation
Trial, the court finds that Short has failed to meet his burden for a new trial. Criminal Rule 33 sets
forth the standard for a new trial. Crim. R. 33(A)(1)-(6) provides:
(A)

Grounds. A new trial may be granted on motion of the defendant for any of the
following causes affecting materially his substantial rights:
(1)

Irregularity in the proceedings, or in any order or ruling of the court, or
abuse of discretion by the court, because of which the defendant was
prevented from having a fair trial;

(2)

Misconduct of the jury, prosecuting attorney, or the witnesses for the state;

(3)

Accident or surprise which ordinary prudence could not have guarded
against;

(4)

That the verdict is not sustained by sufficient evidence or is contrary to
law....;

Appendix C

A - 11

3

(5)

Error of law occurring at the trial;

(6)

When new evidence material to the defense is discovered, which the
defendant could not with reasonable diligence have discovered and
produced at trial…

As grounds for his Motion for New Mitigation Trial, as contained within his Motion for Leave,
Short argues that there were irregularities in the proceedings, the verdict is not sustained by
sufficient evidence, and the death sentence in this case is the result of an error of law. Short’s
Motion is premised exclusively on the United States Supreme Court decision in Hurst v. Florida,
577 U.S. ___, 136 S. Ct. 616 (2016), wherein the Court found that Florida’s death penalty
procedures violated the Sixth and Fourteenth Amendments to the United States Constitution.
However, as stipulated by the parties in their Joint Motion for Ruling on Motion for New Mitigation
Trial filed herein on December 20, 2019, the Ohio Supreme Court decision in State v. Mason, 153
Ohio St. 3d 476, 2018-Ohio-1462, is the controlling precedent in this case. In Mason, the Ohio
Supreme Court found that because Ohio’s death penalty scheme satisfies the Sixth Amendment,
and, thus, the Hurst decision does not support a basis for a new trial.
For the reasons stated above, the court finds that Defendant failed to timely file his motion
for new trial after the court granted him leave to do so. Still further, when considering the merits of
any motion for a new mitigation trial, the court finds that the sole basis for Defendant’s request for a
new mitigation trial, the decision in Hurst, has been found to be inapplicable to Ohio’s death
penalty scheme. As such, Short has failed to provide support as required by law for his motion for a
new mitigation trial and the same is OVERRULED.
SO ORDERED:
JUDGE MARY KATHERINE HUFFMAN

Appendix C

A - 12

4

THIS IS A FINAL APPEALABLE ORDER, AND THERE IS NOT JUST CAUSE FOR
DELAY FOR PURPOSES OF CIV. R. 54. PURSUANT TO APP. R. 4, THE PARTIES
SHALL FILE A NOTICE OF APPEAL WITHIN THIRTY (30) DAYS.
SO ORDERED.
JUDGE MARY KATHERINE HUFFMAN

To the Clerk of Courts:
Please serve the attorney for each party and each party not
represented by counsel with Notice of Judgment and its date of entry
upon the journal.
JUDGE MARY KATHERINE HUFFMAN
This document is electronically filed by using the Clerk of Courts e-Filing system. The system will post a
record of the filing to the e-Filing account "Notifications" tab of the following case participants:

ANDREW FRENCH
(937) 225-5757
Attorney for Plaintiff
KIMBERLY S RIGBY
(614) 466-5394
Attorney for Defendant, Duane Allen Short
Ryan Colvin, Bailiff (937) 496-7955 Ryan.Colvin@montcourt.oh.gov

Appendix C

A - 13

General Divison
Montgomery County Common Pleas Court
41 N. Perry Street, Dayton, Ohio 45422

Case Number:
2004 CR 02635

Case Title:
STATE OF OHIO vs DUANE ALLEN SHORT

Type:

Decision
So Ordered,

Electronically signed by mhuffman on 12/30/2019 02:06:09 PM Page 5 of 5

Appendix C

A - 14

•
COL11\T

FILEO

o;-: COWlm! PLEAS

2805 JU~! -7 Pi1 2= 32

c..:.:1 r:cl..~Y

CL::.rC( OF Ct.:L.-'.T'.3
i:c,.rco;-!E!.Y CJ.. CilO

IN THE COMMON PLEAS COURT OF MONTGOMERY COUNTY, OHIO
STATE OF OHIO,

CASE NO. 2004 CR 02635

Plaintiff,

JUDGE MARY KATHERINE HUFFMAN

v.
OPINION OF TRIAL JUDGE
(O.R.C. §2929.03)

DUANE SHORT,
Defendant.

- - - - -- - - -- -

-

This matter came on to be heard pursuant to Ohio Revised Code Section 2929.03(F). On
September 20, 2004, the Grand Jury of Montgomery County, Ohio returned an Indictment
charging the Defendant, Duane Allen Short with, among other crimes, the Aggravated Murders
of Donnie R. Sweeney and Rhonda M. Short. The Grand Jury also charged two aggravating
circumstances for each of the three charges of aggravated murder.
The Defendant entered a plea of not guilty and the matter proceeded to trial commencing
on April 17, 2006. On May 5, 2006 the jury returned unanimous verdicts of guilty as to Counts
Two, Four and Five of the Indictment for the Aggravated Murder involving the deaths of Donnie
R. Sweeney and Rhonda M. Short. In addition, the jury convicted the Defendant of the two
aggravating circumstances which were attached to Counts Two, Four and Five of the Indictment.
The two aggravating circumstances, or death specifications, which were appended to
Counts Two, Four and Five are: (1) that the offenses were part of a course of conduct involving
the purposeful killing of two or more persons, and (2) the offenses were committed while the
Defendant was committing, attempting to commit, or fleeing immediately after committing or

Appendix D

A - 15

2

attempting to commit the offense of aggravated burglary, and the Defendant was the principal
offender in the commission of the aggravated murder.
Each of the aggravating circumstances must be considered with the count to which it is
appended, and each count must be considered separately. Pursuant thereto, the court makes the
following findings regarding the aggravating circumstances:
1. The testimony at trial was that the Defendant, Duane Allen Short, purposefully killed
Donnie R. Sweeney and Rhonda M. Short on July 22, 2004. Short's wife, Rhonda M. Short had
separated from him on approximately July 15, 2004. She had left a note for Duane Short with
their son, Justin Short, who gave the note to his father the same day that his mother left. Rhonda
Short took the two younger Short children, Tiffany and Jesse, with her when she left the home of
the parties located in Middletown, Ohio. Short searched for his wife over the course of several
days, going to several different churches, looking for his wife as well as praying.
On July 22, 2004, Short contacted DP&L and learned through subterfuge where his wife
was residing. Short then traveled with his son, Justin, to Huber Heights, to locate the property
address he had been provided by DP&L, the property being located at 5035 Pepper Drive, Huber
Heights, Ohio. Short stopped at a local real estate office and was given directions to the home.
Short and Justin then returned to their home in Middletown where Short attempted to buy a !,'1ln
from a friend, Brandon Fletcher. Fletcher knew that Short and his wife had recently separated.
He refused to sell Short the gun. Short also called his employer, Robert McGee, and asked if he
could borrow McGee's truck to move some furniture to Miamisburg. McGee consented and
Short exchanged his own truck for that owned by McGee. Later .that evening Short and his son
traveled in McGee's truck to Miamisburg, Ohio, where Short purchased a shotgun at Dick's
Sporting Goods. Prior to leaving his residence in Middletown, Short took hats, a long black coat,

Appendix D

A - 16

3

gloves, a towel and shotgun shells and put them in McGee's truck. Short told his son that he
wanted to go hunting and he was buying a gun to hunt. After purchasing the gun Short and his
son, Justin, traveled approximately two miles to a Meijer store and purchased a hacksaw. They
then traveled to Huber Heights and drove past the home located at 5035 Pepper Drive where
Short and Justin observed Rhonda Short walking outside the home and also observed Donnie
Sweeney's automobile at the residence. Prior to driving past the home at 5035 Pepper Drive,
Short told Justin to put on a hat so that his mother would not recognize them. Short and Justin
then checked into a motel in Huber Heights where Short, after turning the television on loud and
putting a "do not disturb" sign on the door, proceeded to have his son sit on the butt of the gun
while he sawed off the barrel.
The evidence further indicates that Defendant entered the property located at 503 5 Pepper
Drive, Huber Heights, Ohio, at about I 0:30PM on July 22, 2004, and went around the home to
the back yard, where he entered the yard and shot Donnie R. Sweeney one time in the chest from
a relatively close range. Some noise in the backyard attracted two of Defendant's children,
Tiffany and Jesse, who had been in the home at 5035 Pepper Drive, watching television in the
living room. When Tiffany and Jesse heard the noise they went to the back window of the home,
but could see nothing outside. Jesse then began opening the door to see what was going on
outside, when both Tiffany and Jesse observed their father, Duane Allen Short, enter into the
home, without permission, with a gun in his hand. Tiffany and/or Jesse called out to their father,
but he did not respond to them. Instead, Defendant proceeded into the home at 5035 Pepper
Drive. Tiffany and Jesse then ran out of the home.
Defendant then proceeded to kick open the door to the bathroom located in the hallway of
the residence at 5035 Pepper Drive and shoot his wife, Rhonda M. Short. Shortly thereafter

Appendix D

A - 17

4

Defendant was apprehended on the back porch of the residence at 5035 Pepper Drive by officers
from the Huber Heights Police Department. Rhonda Short was still alive when paramedics
arrived. She stated to Adam Blake and David Develbiss, both firefighter/paramedics with the
Huber Heights Fire Department, words to the effect that "he shot me." Rhonda Short was also
shot at relatively close range. At the scene, David Develbiss removed shotgun wadding from the
wound that had been inflicted to Rhonda Short's upper right chest. Rhonda M. Short died at
approximately 4:38AM the following morning, approximately six hours after the shooting as a
result of a shotgun wound to the right chest. Donnie Sweeney was dead at the scene. His cause
of death was a shotgun wound to the left chest.
In the weeks prior to her mother's death, Tiffany Short heard her parents arguing and
heard her father, Duane Short, tell her mother, Rhonda Short, more than one time, "if you ever
leave I'll kill you." Approximately one to two months before Rhonda Short' s death, Amy
Spurlock, a friend of Rhonda Short, and a relative of her mother's boyfriend, heard Duane Short
ask Rhonda to read a newspaper article about a man who had killed his wife. Rhonda did not
want to do so, but Duane was described by Amy as being "angry, upset and mad." Duane then
said to Rhonda, "if you ever leave me or cheat on me I'll kill you, the kids and myself." Bob
Thomas, a co-worker with the Defendant in the meat department at McGee's IGA, also heard
Short make a similar statement. A few months prior to the shooting, Short told Thomas "if my
wife ever leaves me for another man, I'll kill both of them and myself." On July 21 , 2004, the
day prior to the shootings, Duane Short approached a relative of his father, Loren Taylor, at the
Abundant Life Tabernacle. Loren was on the pulpit directing a music practice when he was
approached by Short, who stated that he was looking for his parents. Short told Loren that
Rhonda had left him and stated "I think she left me for another man, I just thought about going

Appendix D

A - 18

5
over there and killing him." The court finds the aforementioned testimony is sufficient to find
that said killings were purposeful and involved the killing of two persons.
2. The evidence disclosed that the Defendant and Rhonda M. Short had separated on
approximately July 15, 2004, at the will of Rhonda Short. Rhonda and the children, Tiffany and
Jesse, moved from hotel to hotel for several nights. Rhonda and her friend, Brenda Barrion, who
was Donnie Sweeney's mother, rented the home located at 5035 Pepper Drive for Rhonda and
her children on July 17, 2004. Rhonda and the children moved into the home on July 20, 2004.
Brenda Barrion had attempted to rent furniture for Rhonda's use in the home but because she
was afraid of leaving a paper trail, she and Rhonda chose not to rent the furniture. Rhonda had
put the utilities at the residence in her maiden name. Brenda Barrion testified that she was the
person who had rented the home located at 5035 Pepper Drive, Huber Heights, Montgomery
County, Ohio, and that at no time had she given Duane Short permission to enter the premises.
Tiffany Short testified that no one gave her father permission to enter the residence. Jesse Short
also testified that his father shoved open the door to the house and entered. There is no evidence
that Rhonda Short, nor anyone authorized to do so, gave Duane Short permission to enter upon
the premises located at 5035 Pepper Drive, Huber Heights, Ohio, on July 22, 2004.
The court finds that no open permission was granted for Defendant to enter upon the
premises at 5035 Pepper Drive. Rhonda Short was clearly attempting to hide her whereabouts
from Defendant. The court further finds the entrance upon the property at 5035 Pepper Drive by
Defendant was unwarranted and a trespass, and he lacked privilege or permission to enter upon
the land. Further, the Defendant, after gaining entrance committed a violent felony against the
person of Rhonda M. Short, who had authority to grant or revoke any privilege to enter upon the
land. The court finds that the evidence was legally sufficient to establish that Duane M. Short

Appendix D

A - 19

6

committed the aggravated murders of Donnie R. Sweeney and Rhonda M. Short while he was
committing, attempting to commit, or fleeing immediately after committing or attempting to
commit aggravated burglary. The court further finds that the evidence was legally sufficient to
establish that Defendant was the sole perpetrator of the killings of Donnie R. Sweeney and
Rhonda M. Short.
During the trial phase of these proceedings, there was some evidence submitted by the
Defendant which was mitigating in nature, such as Defendant was employed, was the father of
three children, and that he attended church. There was also some evidence that Defendant was
dependable when it came to his employment and he was a hard-worker.
The sentencing phase of the case began on May 8, 2006. Prior to proceeding in the
presence of the jury, Defendant's counsel advised the court that Defendant did not intend to
present any additional mitigation evidence, other than that which was presented during the trial
phase. The court then conducted a detailed inquiry of the Defendant, pursuant to State of Ohio v.

Ashworth, 85 Ohio St. 3d 56 (1999). Defendant specifically stated, on the record, outside of the
presence of the jury, after being advised of his rights pursuant to Ashworth, that he was well
aware of his right to present mitigation evidence, that he knew the purpose of mitigation
evidence, that he had given the matter considerable thought, that he had discussed the matter
with his counsel and any other person that he considered to be important to his decision, that it
was his choice not to present any additional mitigation evidence and, further, that he understood
that by failing to present any additional mitigation evidence that the jury, more than likely, may
impose the death penalty. The court then found Defendant competent to waive any additional
mitigation evidence. The court also advised Defendant of his right to make either a sworn or
unswom statement, and the Defendant acknowledged to the court that he understood his right

Appendix D

A - 20

7
and he was waiving his right to make a statement in the presence of the jury.
The court then proceeded to instruct the jury on the law and procedures to be followed in
the sentencing phase of the case. Counsel for the State and the Defendant both waived opening
statements. The State proffered all the evidence it had produced in the trial phase, as did the
Defendant. The State relied upon the jury's three verdicts of Aggravated Murder along with the
second and third specifications, or aggravating circumstances, attached to each count of
Aggravated Murder. The Defendant did not present any additional evidence in mitigation.
At the conclusion of the evidence, counsel argued their positions to the jury and the court
instructed the jury on the Jaw. Part of those instructions set forth the aggravating circumstances
that the jury should weigh and some of the mitigating factors they could consider. The jury was
informed that each count was to be considered separately.
The jury deliberated on May 8 and May 9, 2006. On May 9, 2006, the jury announced its
verdicts and found beyond a reasonable doubt that the aggravating circumstances which the
Defendant was found guilty of committing in the aggravated murders as set forth in Counts 2, 4
and 5 outweighed the mitigating factors in this case and they, therefore, recommended the
Defendant be sentenced to death as to Counts 2, 4 and 5.
The Defendant was given a further opportunity to allocute on May 30, 2006, at which
time Defendant made a length statement, which the court has considered.
The court must now conduct its own independent review of the evidence and
determination of whether the aggravating circumstances outweigh the mitigating evidence
beyond a reasonable doubt, pursuant to O.R.C. §2929.03. The court is required to weigh the two
aggravating circumstances for which the Defendant was found guilty against any mitigating
factors the court may find in its independent search of the entire record.

Appendix D

A - 21

8
The court notes that the nature and circumstances of the offense are only to be considered
as a mitigating factor, and never as an aggravating circumstance. In fact, the court is confined to
considering the aggravating circumstances attached to each count, as detailed above. As a result
of Defendant's waiver of the presentation of any additional mitigation evidence, this court is
required to search the record for evidence in favor of mitigation. The court is cognizant of the
fact that the absence of a mitigating factor does not add to existing aggravating circumstances.
The court also acknowledges its duty to assess the penalty for each individual count when
a defendant is convicted of more than one count of aggravated murder with aggravating
circumstances. The court further acknowledges that only the aggravating circumstances related
to a given count may be considered in assessing the penalty for that count.
The court has reviewed the entire record for evidence of mitigation.
The court now shall consider the mitigating factors as they relate to Counts 2, 4, and 5.
O.R.C. §2929.04(B) lists seven specific mitigating factors, all of which will be addressed by the
court. The court must determine whether the State has proved beyond a reasonable doubt that
the aggravating circumstances, for which Defendant was found guilty, outweigh the mitigating
factors. If the State has met this burden of proof, the death penalty shall be imposed. The court
must also consider, as set forth in O.R.C. §2929.04(B), the nature and circumstances of the
offense and the history, character and background of the offender.
When considering the nature and circumstances of the offense, and the history, character
and background of the Defendant, the court has search the entire record for evidence. There is
very little evidence in the record regarding the history, character and background of the
Defendant. Defendant was married and had three children, for whom he provided. The
evidence, including a letter from Justin Short to his father, reveals that Defendant's children Jove

Appendix D

A - 22

9
him, despite the events of July 22, 2004. Defendant was employed at the time of the offense.
The court has also reviewed the psychological evaluations made part of the record herein.
Specifically, the court has reviewed and considered the Competency to Stand Trial Report
prepared by Dr. Scott Kidd, and dated January 6, 2005, and the Competency Evaluation Report
prepared by Dr. Kim Stookey, and dated February 21, 2005. The defendant reported that he had
a good relationship with his family, he frequently attended church and that he is a high school
graduate. He reported having some social adjustment issues and that his mother was very strict
while he was growing up. Short did not report any incidents of abuse during his childhood. He
reported a head injury resulting from a motorcycle accident in 1997. As a result of injuries
sustained in that accident, Short reported that he developed a dependency to prescription drugs.
He also reported a history of drug and alcohol abuse. The statements contained in the
psychological evaluations were somewhat conflicting, as the information reveals that Defendant
last abused prescription drugs in 1999 and in 2002. The court gives little weight to these issues.
The court will now address the seven statutorily delineated mitigating factors.
1.

Whether the victim of the offense induced or facilitated it. Defense counsel
argued that the details of the crime evidenced a man who was upset or despondent
over the loss of his wife and his perception that she had left him for another man.
The court finds that there is no evidence that the victims of the offense, Donnie R.
Sweeney or Rhonda M. Short, facilitated the offense. While Defendant argued
that his wife leaving him and another man, Donnie Sweeney, being at her home,
facilitated the offense and induced him to commit the aggravated murders, there is
nothing about the conduct of the victims that induced or facilitated Defendant's
actions. Donnie Sweeney was in the backyard of the home at 5035 Pepper Drive

Appendix D

A - 23

10
when he was set upon and shot at close range by Defendant. Rhonda Short was in
the bathroom, apparently just having showered, when Defendant kicked in the
door and shot her at close range. There is no evidence to indicate that either
victim committed any act toward Defendant. While the defendant clearly was
upset that his wife had left him, the fact that his wife was at a home that she had
rented while another man was in the backyard &'filling dinner, is not sufficient to
give any weight to the mitigating factor that the victims of the offense induced or
facilitated the offense.
2.

Whether it is unlikely the offense would have been committed, but for the fact
that the Defendant was under duress. coercion, or strong provocation. The only
evidence of duress, coercion, or strong provocation is that he was upset that his
wife had left him, and that he believed she had left him for another man.
Defendant's emotions relating to the loss of his wife or family does not equate to
duress, coercion or strong provocation. As stated above, Donnie Sweeney was
grilling in the backyard when he was shot at close range by the Defendant, who
was on the property without the permission of anyone who was entitled to grant
him permission. Defendant then proceeded, without privilege to do so, into the
residence at 5035 Pepper Drive and kicked in the bathroom door and shot his
wife. There is no evidence of duress, coercion or strong provocation sufficient to
mitigate the consequences of Defendant's behavior. The court gives little weight
to this factor.

3.

Whether, at the time of committing the offense, the offender, because of mental
disease or defect. lacked substantial capacity to appreciate the criminality of the

Appendix D

A - 24

11
offender's conduct or to conform the offender's conduct to the requirements of
the law. There was no testimony relating to this factor, expect possibly for
evidence that the Defendant was upset that his wite had left him, presumably for
another man. Justin Short testified that, in the week preceding the deaths of
Donnie Sweeney and Rhonda Short, his father was sad, angry and upset. Bob
Thomas, Short's co-worker, testified that in the days prior to July 22, 2004, Short
was "down" and "wanted to die." However, following the shootings at 5035
Pepper Drive, Short was supervised while in a holding cell and then transported to
the jail by Officer Brad Reaman of the Huber Heights Police Department.
Reaman described Short as being calm and in command of his faculties. Short
reported in the court-ordered psychological evaluations that he has been treated
for some time for depression and anxiety and for sleep difficulties. He also
reported having been diagnosed with Bipolar Disorder in 2002, said diagnosis
having been unconfirmed in the medical records provided to the evaluating
psychologist. Short reported that he went to the hospital and was treated for
several hours after his wife left him, as he was despondent. The psychological
evaluations made part of the record also reveal that Short' s treating physicians
made repeated recommendations that he seek treatment and psychological
counseling, but he failed to do so. Based upon the evaluations, Short was
diagnosed with a thought disorder. However, the planning and calculation that
preceded the offenses belie mental disease or defect, or lack of substantial
capacity to appreciate the criminality of his conduct or to conform his conduct to
the requirements of the law. The court notes that Defendant offered no other

Appendix D

A - 25

12

testimony, including no expert testimony, that he suffered from a mental disease
or defect, that he lacked substantial capacity to appreciate the criminality of his
conduct or to conform his conduct to the requirements of the law. The court gives
little weight to this factor.
4.

The youth of the offender. The record reveals that the Defendant was 36 years old
at the time of the offense. Therefore, this mitigating factor is inapplicable.

5.

The offender's lack of a significant history of prior criminal convictions and
delinquency adjudications. There is some conflicting evidence in the
psychological evaluations, the information for which was provided by Defendant
himself, that Short was charged with domestic violence in the past, relating either
to his first wife or his first wife's father. That information was conflicting and
confusing. There is no other evidence in the record that Defendant has any
criminal history, whether as a juvenile or as an adult. However, given the
multiple deaths associated with Defendant's conduct and the multiple other
felonies for which the jury found the Defendant guilty, and the fact that the
Defendant was the only offender, the court gives little weight to this factor.

6.

If the offender was a participant in the offense but not the principal offender. the

degree of the offender's participation in the offense and the degree of the
offender's participation in the acts that led to the death of the victim. Defendant,
Duane Allen Short was the only offender in the offenses at issue. Therefore, the
court gives no weight to this factor.
7.

Any other factors that are relevant to the issue uf whether the offender should be
sentenced to death. The testimony offered at trial raised several factors which

Appendix D

A - 26

13

could be deemed and are so offered and considered in mitigation of the offense.
A.

The impact on Justin, Tiffany and Jesse Short. The impact on Short's
children has been considered. The evidence before the court is that the
Defendant loved his children and that sentiment was reciprocated. It
would be pure speculation for the court to consider the impact on the
Short children; however, one would assume that the impact of their
present circumstance is overwhelming. The court gives little weight to
this factor, however, in light of the fact that Defendant's conduct resulted
in the circumstances that his children now face.

B.

Support from Defendant's family and friends. There was some evidence
in the record that Defendant's family members continue to love and
support him, and who have visited him in the jail during his incarceration.
The court assigns little weight to this factor.

C.

Assistance and cooperation with police. Short's assistance and
cooperation with the police is found to be a mitigating factor. He
cooperated after submitting to arrest without resistence. He did
acknowledge his involvement in the offenses. However, the court assigns
little weight to this mitigating factor.

D.

Employment. The evidence was undisputed that Defendant had been
employed and was supporting his family. The court finds that this factor
is of little weight.

E.

Remorse. Defendant made an expression of remorse in his statement to
the court. However, the court gives little weight to his expression of

Appendix D

A - 27

14

remorse, as it was tempered by his lengthy statement placing blame on
other for his conduct, including the family of Donnie Sweeney. The court
assigns very little weight, if any, to this factor.
The jury in Counts 2, 4 and 5 found the aggravating circumstances outweighed the
mitigating factors beyond a reasonable doubt. The court, having conducted the same process,
and having weighed the aggravating circumstances and the mitigating factors or evidence, agrees
with the jury's verdict. The aggravating circumstances outweigh the mitigating factors beyond a
reasonable doubt and the State, therefore, has sustained its burden as to Counts 2, 4 and 5. The
court finds the mitigating factors pale in significance when considering the aggravating
circumstances. The court, thus, agrees with the verdict of the jury as to Counts 2, 4 and 5.
After searching and reviewing the record, this court has found beyond a reasonable doubt
that the following aggravating circumstances: (1) the aggravated murders of Donnie R. Sweeney
and Rhonda M. Short were part of a course of conduct involving the purposeful killing of two or
more persons; and (2) Defendant committed the aggravated murders of Donnie R. Sweeney and
Rhonda M. Short while committing, attempting to commit, or fleeing immediately after
committing or attempting to commit aggravated burglary, and Defendant was the principal
offender in the aggravated murders, outweigh the mitigating factors and evidence.
The Defendant, Duane Allen Short, having been convicted of the Aggravated Murders of
Donnie R. Sweeney and Rhonda M. Short, and the jury having determined the aggravating
circumstances outweigh the mitigating factors beyond a reasonable doubt, as to Counts 2, 4 and 5
of the indictment, and the court having independently reviewed and weighed the evidence in the
record, finds the aggravating circumstances outweigh the mitigating factors beyond a reasonable
doubt, and the sentence of death shall be imposed upon the Defendant.

Appendix D

A - 28

15
Consistent with the court's pronouncement of sentence on May 30, 2006, the prosecutor's
office is directed to prepare a Termination Entry reflecting the court's sentence for the court's
review and filing.
IT IS SO ORDERED.

r?/~.(~

JUDGEMRY KATHERINE HUFFMAN

Copies of the above were sent to all parties listed below by ordinary mail this date of filing.
LEON DAIDONE
ASSISTANT PROSECUTING ATTORNEY
301 WEST THIRD STREET
DAYTON, OH 45402
(937) 225-5757
Attorney for Plaintiff
ROBERT C. DESCHLER
ASSISTANT PROSECUTING ATTORNEY
301 WEST THIRD STREET
DAYTON, OHIO 45402
(937) 225-5757
Attorney for Plaintiff
L. PATRICK MULLIGAN
ATIORNEY AT LAW
28 N. WILKINSON STREET
DAYTON, OHIO 45402
(937) 228-9790
Attorney for Defendant

GEORGE KATCHMER
ATIORNEY AT LAW
17 SOUTH ST. CLAIR STREET, SUITE 320
DAYTON, OH 45401
(937) 224-0036
Attorney for Defendant
Ryan Colvin, Bailiff (937) 496-7955 /Email: colvinr@montcourt.org

Appendix D

A - 29

2004 ORC Ann. 2929.03
2004 Ohio Code Archive
PAGE'S OHIO REVISED CODE ANNOTATED > TITLE 29. CRIMES -- PROCEDURE > CHAPTER
2929. PENALTIES AND SENTENCING > PENALTIES FOR MURDER

§ 2929.03. Imposing sentence for aggravated murder
(A)If the indictment or count in the indictment charging aggravated murder does not contain one or
more specifications of aggravating circumstances listed in division (A) of section 2929.04 of the
Revised Code, then, following a verdict of guilty of the charge of aggravated murder, the trial court
shall impose sentence on the offender as follows:
(1)Except as provided in division (A)(2) of this section, the trial court shall impose a sentence
of life imprisonment with parole eligibility after serving twenty years of imprisonment on the
offender.
(2)If the offender also is convicted of or pleads guilty to a sexual motivation specification and a
sexually violent predator specification that are included in the indictment, count in the
indictment, or information that charged the aggravated murder, the trial court shall impose
upon the offender a sentence of life imprisonment without parole that shall be served pursuant
to section 2971.03 of the Revised Code.
(B)If the indictment or count in the indictment charging aggravated murder contains one or more
specifications of aggravating circumstances listed in division (A) of section 2929.04 of the Revised
Code, the verdict shall separately state whether the accused is found guilty or not guilty of the
principal charge and, if guilty of the principal charge, whether the offender was eighteen years of age
or older at the time of the commission of the offense, if the matter of age was raised by the offender
pursuant to section 2929.023 [2929.02.3] of the Revised Code, and whether the offender is guilty or
not guilty of each specification. The jury shall be instructed on its duties in this regard. The instruction
to the jury shall include an instruction that a specification shall be proved beyond a reasonable doubt
in order to support a guilty verdict on the specification, but the instruction shall not mention the
penalty that may be the consequence of a guilty or not guilty verdict on any charge or specification.
(C)(1) If the indictment or count in the indictment charging aggravated murder contains one or more
specifications of aggravating circumstances listed in division (A) of section 2929.04 of the Revised
Code, then, following a verdict of guilty of the charge but not guilty of each of the specifications, and
regardless of whether the offender raised the matter of age pursuant to section 2929.023 [2929.02.3]
of the Revised Code, the trial court shall impose sentence on the offender as follows:
(a)Except as provided in division (C)(1)(b) of this section, the trial court shall impose a
sentence of life imprisonment with parole eligibility after serving twenty years of imprisonment
on the offender.
(b)If the offender also is convicted of or pleads guilty to a sexual motivation specification and
a sexually violent predator specification that are included in the indictment, count in the
indictment, or information that charged the aggravated murder, the trial court shall impose
upon the offender a sentence of life imprisonment without parole that shall be served pursuant
to section 2971.03 of the Revised Code.

Appendix E

A - 30

2004 ORC Ann. 2929.03

(2)(a) If the indictment or count in the indictment contains one or more specifications of
aggravating circumstances listed in division (A) of section 2929.04 of the Revised Code
and if the offender is found guilty of both the charge and one or more of the specifications,
the penalty to be imposed on the offender shall be one of the following:
(i)Except as provided in division (C)(2)(a)(ii) of this section, the penalty to be imposed
on the offender shall be death, life imprisonment without parole, life imprisonment with
parole eligibility after serving twenty-five* full years of imprisonment, or life
imprisonment with parole eligibility after serving thirty full years of imprisonment.
(ii)If the offender also is convicted of or pleads guilty to a sexual motivation
specification and a sexually violent predator specification that are included in the
indictment, count in the indictment, or information that charged the aggravated murder,
the penalty to be imposed on the offender shall be death or life imprisonment without
parole that shall be served pursuant to section 2971.03 of the Revised Code.
(b)A penalty imposed pursuant to division (C)(2)(a)(i) or (ii) of this section shall be determined
pursuant to divisions (D) and (E) of this section and shall be determined by one of the
following:
(i)By the panel of three judges that tried the offender upon the offender's waiver of the
right to trial by jury;
(ii)By the trial jury and the trial judge, if the offender was tried by jury.
(D)(1) Death may not be imposed as a penalty for aggravated murder if the offender raised the matter
of age at trial pursuant to section 2929.023 [2929.02.3] of the Revised Code and was not found at
trial to have been eighteen years of age or older at the time of the commission of the offense. When
death may be imposed as a penalty for aggravated murder, the court shall proceed under this
division. When death may be imposed as a penalty, the court, upon the request of the defendant,
shall require a pre-sentence investigation to be made and, upon the request of the defendant, shall
require a mental examination to be made, and shall require reports of the investigation and of any
mental examination submitted to the court, pursuant to section 2947.06 of the Revised Code. No
statement made or information provided by a defendant in a mental examination or proceeding
conducted pursuant to this division shall be disclosed to any person, except as provided in this
division, or be used in evidence against the defendant on the issue of guilt in any retrial. A presentence investigation or mental examination shall not be made except upon request of the
defendant. Copies of any reports prepared under this division shall be furnished to the court, to the
trial jury if the offender was tried by a jury, to the prosecutor, and to the offender or the offender's
counsel for use under this division. The court, and the trial jury if the offender was tried by a jury, shall
consider any report prepared pursuant to this division and furnished to it and any evidence raised at
trial that is relevant to the aggravating circumstances the offender was found guilty of committing or
to any factors in mitigation of the imposition of the sentence of death, shall hear testimony and other
evidence that is relevant to the nature and circumstances of the aggravating circumstances the
offender was found guilty of committing, the mitigating factors set forth in division (B) of section
2929.04 of the Revised Code, and any other factors in mitigation of the imposition of the sentence of
death, and shall hear the statement, if any, of the offender, and the arguments, if any, of counsel for
the defense and prosecution, that are relevant to the penalty that should be imposed on the offender.
The defendant shall be given great latitude in the presentation of evidence of the mitigating factors
set forth in division (B) of section 2929.04 of the Revised Code and of any other factors in mitigation
of the imposition of the sentence of death. If the offender chooses to make a statement, the offender

Appendix E

A - 231
Page
of 5

2004 ORC Ann. 2929.03

is subject to cross-examination only if the offender consents to make the statement under oath or
affirmation.
The defendant shall have the burden of going forward with the evidence of any factors in
mitigation of the imposition of the sentence of death. The prosecution shall have the burden of
proving, by proof beyond a reasonable doubt, that the aggravating circumstances the defendant
was found guilty of committing are sufficient to outweigh the factors in mitigation of the imposition
of the sentence of death.
(2)Upon consideration of the relevant evidence raised at trial, the testimony, other evidence,
statement of the offender, arguments of counsel, and, if applicable, the reports submitted
pursuant to division (D)(1) of this section, the trial jury, if the offender was tried by a jury, shall
determine whether the aggravating circumstances the offender was found guilty of committing
are sufficient to outweigh the mitigating factors present in the case. If the trial jury
unanimously finds, by proof beyond a reasonable doubt, that the aggravating circumstances
the offender was found guilty of committing outweigh the mitigating factors, the trial jury shall
recommend to the court that the sentence of death be imposed on the offender. Absent such
a finding, the jury shall recommend that the offender be sentenced to one of the following:
(a)Except as provided in division (D)(2)(b) of this section, to life imprisonment without
parole, life imprisonment with parole eligibility after serving twenty-five * full years of
imprisonment, or life imprisonment with parole eligibility after serving thirty full years of
imprisonment;
(b)If the offender also is convicted of or pleads guilty to a sexual motivation specification
and a sexually violent predator specification that are included in the indictment, count in
the indictment, or information that charged the aggravated murder, to life imprisonment
without parole.
If the trial jury recommends that the offender be sentenced to life imprisonment without
parole, life imprisonment with parole eligibility after serving twenty-five* full years of
imprisonment, or life imprisonment with parole eligibility after serving thirty full years of
imprisonment, the court shall impose the sentence recommended by the jury upon the
offender. If the sentence is a sentence of life imprisonment without parole imposed under
division (D)(2)(b) of this section, the sentence shall be served pursuant to section 2971.03
of the Revised Code. If the trial jury recommends that the sentence of death be imposed
upon the offender, the court shall proceed to impose sentence pursuant to division (D)(3)
of this section.
(3)Upon consideration of the relevant evidence raised at trial, the testimony, other evidence,
statement of the offender, arguments of counsel, and, if applicable, the reports submitted to
the court pursuant to division (D)(1) of this section, if, after receiving pursuant to division
(D)(2) of this section the trial jury's recommendation that the sentence of death be imposed,
the court finds, by proof beyond a reasonable doubt, or if the panel of three judges
unanimously finds, by proof beyond a reasonable doubt, that the aggravating circumstances
the offender was found guilty of committing outweigh the mitigating factors, it shall impose
sentence of death on the offender. Absent such a finding by the court or panel, the court or
the panel shall impose one of the following sentences on the offender:
(a)Except as provided in division (D)(3)(b) of this section, one of the following:
(i)Life imprisonment without parole;

Appendix E

A - 332
Page
of 5

2004 ORC Ann. 2929.03

(ii)Life imprisonment with parole eligibility after serving twenty-five* full years of
imprisonment;
(iii)Life imprisonment with parole eligibility after serving thirty full years of
imprisonment.
(b)If the offender also is convicted of or pleads guilty to a sexual motivation specification
and a sexually violent predator specification that are included in the indictment, count in
the indictment, or information that charged the aggravated murder, life imprisonment
without parole that shall be served pursuant to section 2971.03 of the Revised Code.
(E)If the offender raised the matter of age at trial pursuant to section 2929.023 [2929.02.3] of the
Revised Code, was convicted of aggravated murder and one or more specifications of an aggravating
circumstance listed in division (A) of section 2929.04 of the Revised Code, and was not found at trial
to have been eighteen years of age or older at the time of the commission of the offense, the court or
the panel of three judges shall not impose a sentence of death on the offender. Instead, the court or
panel shall impose one of the following sentences on the offender:
(1)Except as provided in division (E)(2) of this section, one of the following:
(a)Life imprisonment without parole;
(b)Life imprisonment with parole eligibility after serving twenty-five * full years of
imprisonment;
(c)Life imprisonment with parole eligibility after serving thirty full years of imprisonment.
(2)If the offender also is convicted of or pleads guilty to a sexual motivation specification and a
sexually violent predator specification that are included in the indictment, count in the
indictment, or information that charged the aggravated murder, life imprisonment without
parole that shall be served pursuant to section 2971.03 of the Revised Code.
(F)The court or the panel of three judges, when it imposes sentence of death, shall state in a
separate opinion its specific findings as to the existence of any of the mitigating factors set forth in
division (B) of section 2929.04 of the Revised Code, the existence of any other mitigating factors, the
aggravating circumstances the offender was found guilty of committing, and the reasons why the
aggravating circumstances the offender was found guilty of committing were sufficient to outweigh
the mitigating factors. The court or panel, when it imposes life imprisonment under division (D) of this
section, shall state in a separate opinion its specific findings of which of the mitigating factors set forth
in division (B) of section 2929.04 of the Revised Code it found to exist, what other mitigating factors it
found to exist, what aggravating circumstances the offender was found guilty of committing, and why
it could not find that these aggravating circumstances were sufficient to outweigh the mitigating
factors. For cases in which a sentence of death is imposed for an offense committed before January
1, 1995, the court or panel shall file the opinion required to be prepared by this division with the clerk
of the appropriate court of appeals and with the clerk of the supreme court within fifteen days after
the court or panel imposes sentence. For cases in which a sentence of death is imposed for an
offense committed on or after January 1, 1995, the court or panel shall file the opinion required to be
prepared by this division with the clerk of the supreme court within fifteen days after the court or
panel imposes sentence. The judgment in a case in which a sentencing hearing is held pursuant to
this section is not final until the opinion is filed.
(G)

Appendix E

A - 433
Page
of 5

2004 ORC Ann. 2929.03

(1)Whenever the court or a panel of three judges imposes a sentence of death for an offense
committed before January 1, 1995, the clerk of the court in which the judgment is rendered
shall deliver the entire record in the case to the appellate court.
(2)Whenever the court or a panel of three judges imposes a sentence of death for an offense
committed on or after January 1, 1995, the clerk of the court in which the judgment is
rendered shall deliver the entire record in the case to the supreme court.

History
134 v H 511 (Eff 1-1-74); 139 v S 1 (Eff 10-19-81); 146 v S 4 (Eff 9-21-95); 146 v S 2 (Eff 7-1-96); 146 v
S 269 (Eff 7-1-96); 146 v H 180. Eff 1-1-97.
PAGE'S OHIO REVISED CODE ANNOTATED
Copyright © 2021 by Matthew Bender & Company, Inc a member of the LexisNexis Group All rights reserved.

End of Document

Appendix E

A - 534
Page
of 5

